an

OCKLE

2311 Douglas Street CA L 1 Brief E-Mail Address:
Omaha, Nebraska 68102-1214 ega ie © on contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No, 20-979

PANKAJKUMAR S. PATEL and JYOTSNABEN P. PATEL,
Petitioners,
Vv.
MERRICK B. GARLAND, ATTORNEY GENERAL,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR THE
AMERICAN IMMIGRATION LAWYERS ASSOCIATION AS AMICUS CURIAE IN SUPPORT
OF PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 7765 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of September, 2021.
! am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of fisbraska &
RENEE J. GOS 9. ¢ bee Aiur ” Ch QL /

fay Comm. Exp. Sapternber 5, 2623,
Notary Public

 

Affiant 41274
